App. 1
[LOGO] NKYHEALTH
NORTHERNKENTUCKYHEALTH

Chicken Pox
Carolyn Swisshelm <carolyn.swisshelm@nkyhealth.org>
Fri, Mar 8, 2019 at 9:55 AM
To: Zack Raney <zachary.raney@nkyhealth.org>
----------Forwarded message---------From: OL of the Assumption Church | SSPX
<chapel46@sspx.org>
Date: Fri, Feb 8, 2019 at 12:07 PM
Subject: RE: Chicken Pox
To: Carolyn Swisshelm <carolyn.swisshelm@nkyhealth.org>
No, I have not seen any of the children. All parents involved assert that it is chicken pox when I talked to
them, but none took their children to the doctor.
It is difficult to manage both schools like this, and I
understand that they have only been there for a couple
years. But, I hope to have them take care of most of
these things soon and hold them accountable for reporting even though some illnesses are going to be
shared within families that attend both schools.

App. 2
From: Carolyn Swisshelm
[mailto:carolyn.swisshelm@nkyhealth.org]
Sent: Wednesday, February 06, 2019 1:43 PM
To: OL of the Assumption Church | SSPX
Subject: Re: Chicken Pox
It is not a true reportable unless it is an outbreak (2
or more unrelated cases.) There is not a lot to do with
5ths disease from our end except to monitor. There
are no exclusion guidelines, but if they are running
a fever exclude as a febrile illness until 24 hours fever free without the use of any fever reducing medications.
Did you see these children with chicken pox? Did you
physically see the chicken pox cases? Could they be the
same illness without the common link and misdiagnosed?
On Wed, Feb 6, 2019 at 11:51 AM OL of the Assumption
Church | SSPX <chapel46@sspx.org> wrote:
I don’t see 5th disease on the chart, so I wonder if
that is also reportable?
I sent out a follow-up letter of my own to remind the
parents and teachers of our school policy, and today
receive a phone call about 2 cases (2 families) of 5th
disease in the Kindergarten class. (This diagnosis
occurred last week.)

App. 3
From: Carolyn Swisshelm
[mailto:carolyn.swisshelm@nkyhealth.org]
Sent: Tuesday, February 05, 2019 12:30 PM
To: OL of the Assumption Church | SSPX
Subject: Re: Chicken Pox
Thank you!
On Tue, Feb 5, 2019 at 12:27 PM OL of the Assumption Church | SSPX <chapel46@sspx.org> wrote:
Thank you, I will get this out today. To follow
up on the answer to your previous question,
out of our 240 students in both schools, only
18% are up-to-date on vaccinations – the rest
have exemptions with/without a history of
vaccines.
Vanessa Dredger
Registrar
Assumption Academy
472 Beaver Rd
Walton, KY 41094
859-485-3800 ext 2
785-410-7692
From: Carolyn Swisshelm
[mailto:carolyn.swisshelm@nkyhealth.org]
Sent: Tuesday, February 05, 2019 12:04 PM
To: chapel46@sspx.org
Cc: Zack Raney
Subject: Chicken Pox
Attached you will find the letter we discussed
this morning. Please be sure to send this to
all students enrolled at the school as well as

App. 4
staff. Feel free to contact me if you have any
questions or concerns and direct any parents
or staff with questions to give us a call.
[Quoted text hidden]
[Quoted text hidden]
[Quoted text hidden]
[Quoted text hidden]

App. 5
Commonwealth of Kentucky
Parent or Guardian’s Declination on
Religious Grounds to Required Immunizations
The Centers for Disease Control and Prevention
(CDC) and Kentucky Department for Public Health
(KDPH) recognize immunization as one of the most
effective tools in preventing disease and reducing the
risks associated with exposure to certain diseases. KRS
214.036 requires parents who object to immunization
of their child to provide a written sworn statement
objecting to immunization of the child on religious
grounds.
Place an “X” in a box or boxes to the left of each
disease, listed below, for which you object to
your child receiving the immunization. Initial
and date the box on the right.
Hepatitis B: According to the CDC Initials
and KDPH, serious symptoms and ef- Date
fects of this disease include: jaundice
⬜
(yellow skin or eyes), life-long liver problems, such as scarring and liver cancer, or death.
Diphtheria (DTaP, DT, Tdap, Td): Initials
According to the CDC and KDPH, se- Date
rious symptoms and effects of this
⬜
disease include: heart failure, paralysis (can’t move parts of the body), breathing problems, coma, or death.

App. 6
Tetanus (DTaP, DT, Tdap, Td): Ac- Initials
cording to the CDC and KDPH, seri- Date
ous symptoms and effects of this disease
include: “locking” of the jaw, difficulty
⬜
in swallowing and breathing, seizures
(jerking and staring), painful tightening of muscles in the head and neck,
or death.
Pertussis (Whooping Cough) (DTaP, Initials
Tdap): According to the CDC and Date
KDPH, serious symptoms and effects
⬜ of this disease include: severe coughing fits that can cause vomiting and
exhaustion, pneumonia, seizures (jerking and staring), brain damage, or death.
Haemophilus influenzae type b Initials
(Hib): According to the CDC and KDPH, Date
serious symptoms and effects of this
disease include: meningitis (infection
⬜ of the brain and spinal cord covering),
pneumonia, severe swelling in the
throat that makes it hard to breathe,
infections of the blood, joints, bones, and
covering of the heart, or death.
Pneumococcal: According to the CDC Initials
and KDPH, serious symptoms and ef- Date
fects of this disease include: chest
pain with rapid breathing or diffi⬜ culty breathing, a high fever, shaking,
chills, excessive sweating, fatigue,
confusion, and a cough with phlegm
that persists or worsens, pneumonia,
brain damage, or death.

App. 7
Polio: According to the CDC and Initials
KDPH, serious symptoms and effects Date
of this disease include: paralysis (can’t
⬜
move parts of the body), meningitis
(infection of the brain and spinal cord
covering), permanent disability, or death.
Measles, Mumps, Rubella (MMR): Initials
According to the CDC and KDPH, se- Date
rious symptoms and effects of measles
include: pneumonia, seizures (jerking
and staring), brain damage, or death.
Serious symptoms and effects of mumps
include: meningitis (infection of the
brain and spinal cord covering), painful swelling of the testicles or ovaries,
⬜
sterility, deafness, or death. Serious
symptoms and effects of rubella include: rash, arthritis, and muscle or
joint pain. If a woman gets rubella
while she is pregnant, she could have
a miscarriage or her baby could be
born with serious birth defects such
as deafness, heart problems, or learning disability.
Varicella (Chickenpox): According Initials
to the CDC and KDPH, serious symp- Date
⬜ toms and effects of this disease include:
severe skin infections, pneumonia, brain
damage, or death.

App. 8
Hepatitis A: According to the CDC Initials
and KDPH, serious symptoms and ef- Date
⬜ fects of this disease include: jaundice
(yellow skin or eyes), “flu-like” illness,
hospitalization, or death.
Meningococcal: According to the CDC Initials
and KDPH, serious symptoms and Date
effects of this disease include: severe
headache, stiff neck, confusion, seizures
⬜
(jerking and staring), high fever, nausea and vomiting, sensitivity of eyes
to light, hearing loss, pneumonia, brain
damage, or death.
Due to my religious beliefs, I object to my child
receiving the required immunizations selected
above. I am aware that if I change my mind, I can
rescind this objection and obtain immunizations
for my child. Initials
•

Additional information about vaccine preventable
diseases, immunizations and reduced or no cost
immunization services is available from the local
health department in each county.

•

In the event that the county health department or
state health department declares an outbreak of a
vaccine-preventable disease for which proof of immunity for a child cannot be provided, he or she
may not be allowed to attend childcare or school for
up to three (3) weeks, or until the risk period ends.

App. 9
Child’s Name
Last

First

Middle

Child’s Date of Birth
MM/DD/YYYY
Parent
Signature
Date
MM/DD/YYYY
To be completed by Notary Public
STATE OF
)
COUNTY OF
)
Subscribed, sworn to or affirmed
under oath and acknowledged before me, a Notary Public in and for
the state and county aforesaid by
, on this the
day
of
, 20 .
Notary Public, State at Large
My Commission Expires:

App. 10
[LOGO] NKYHEALTH [LOGO]
NORTHERNKENTUCKYHEALTH

Northern Kentucky Health Department
8001 Veterans Memorial Drive, Florence, KY 41042 |
859-341-4264 | www.nkyhealth.org
February 5, 2019
Dear Parent or Guardian,
This letter is to inform you that your child’s school,
Assumption Academy, is currently experiencing an outbreak of an illness that is accompanied by a blister-like
rash suspected to be chickenpox. Chickenpox is a highly
contagious disease that is caused by a virus (Varicella
zoster). It is easily spread by touching or breathing in
virus particles that come from the chickenpox blisters
or an infected person’s mouth or nose.
The Northern Kentucky Health Department advises
that you take the following actions:
1.

Ensure all members of your household
are up-to-date on all vaccinations. The
chickenpox vaccine is the best way to prevent
the spread of the virus. It is very safe and prevents almost all cases of severe illness. Most
people who get the vaccine will not get chickenpox. Contact your healthcare provider or
the Health Department with any questions
about where to get the vaccine.
Everyone can be susceptible to chickenpox.
However, if a vaccinated person gets chickenpox, the symptoms are usually milder and
may be shorter in duration. Some people are
at a higher risk for severe illness and serious

App. 11
complications. This includes infants (less than
1 year old), unvaccinated children, adolescents
(older than 12 years old), adults, pregnant
women, and immunocompromised persons.
2.

Monitor your child for symptoms of
chicken pox. Symptoms include a blisterlike rash, itching, tiredness and fever that can
last 5-7 days. The rash appears first on the
chest, back, and face, and then spreads over
the entire body. Be aware that they may not
show symptoms or become ill for 10-21 days
after they were exposed to chicken pox.

3.

If your child experiences any of the symptoms of chickenpox:
• Keep them away from other people as
much as possible.
•

4.
•

Call your doctor and schedule an appointment immediately. Make sure the doctor
performs “confirmatory” testing if it is
believed to be chickenpox and ask about
antiviral treatment.

If your child is diagnosed with chickenpox:
Ask the doctor for a note to give to the school
that states your child has chickenpox.

•

Notify the school of your child’s diagnosis.
School officials will require that you keep your
child at home for the next 7 days, until they
are no longer able to spread the virus.

•

Ensure other people that the child has been
around monitor for symptoms.

App. 12
5.
•

•

If any other member of your household
experiences symptoms of chickenpox:
Keep them away from other people both in
and outside of the household as much as possible.
Ensure they contact their doctor immediately
for testing and treatment. They may want to
ask about antiviral treatment.

If you have any questions or concerns, please call the
Health Department at (859) 363-2070.

App. 13
[LOGO] NKYHEALTH
NORTHERNKENTUCKYHEALTH

Possible Varicella outbreak ( Rash Illness)
4 messages
Miracle, Julie (CHFS-PH) <Julie.Miracle@ky.gov>
Tue, Mar 12, 2019 at 4:38 PM
To: “Khoury, Jennifer A (CHFS DPH DEHP)” <jennifer.
khoury@ky.gov>, “Rush, Carrell (CHS Lab Services)”
<Carrell.Rush@ky.gov>, Zack Raney <zachary.raney@
nkyhealth.org>, Stephanie Vogel <stephanie.vogel@
nkyhealth.org>
Cc: “Schweitzer, Jody (CHS PH)” <Jody.Schweitzer@ky.gov>
Hi Carrell,
Carolyn nor I never received notification of an outbreak number. My fault the I did not ask for one. Can
we have an outbreak number for this outbreak of varicella in a school.
We now have 32 cases of varicella with vaccination rate
of 18%. Go immunizations
From: Miracle, Julie (CHFS-PH)
Sent: Wednesday, February 20, 2019 12:32 PM
To: Rush, Carrell (CHS Lab Services) <Carrell.Rush
@ky.gov>; ‘Carolyn.Swisshelm@nkyhealth.org’ <Carolyn.
Swisshelm@nkyhealth.org>; Schweitzer, Jody (CHS PH)
<Jody.Schweitzer@ky.gov>; Royalty, Kristy (CHS-PH)
<Kristy.Royalty@ky.gov>; ‘rebecca.megee@nkyhealth.org’
<rebecca.megee@nkyhealth.org>

App. 14
Cc: Bennett, Mel M (CHFS DPH DEHP) <mel.bennett@
ky.gov>; Thoroughman, Douglas (CHS-PH) <douglas.
thoroughman@ky,gov>; Robeson, Sara (CHS-PH) <Sara.
Robeson@ky.gov>
Subject: Possible Varicella outbreak ( Rash illness)
Thanks Carol for the notification of possible varicella
outbreak at Assumption Academy in Boone County.
• They have 261 students with 18 case now with no
lab confirmed but all confirmed by parents, teachers
and Principal.
• Parents refuse to take children to doctor for diagnosis
• All cases excluded from school until scabbed over
• Vaccination rate at school for all vaccines including
varicella 18% Religious exemptions stating that vaccines are made from aborted fetuses
• NKY wants guidance on other children who are not
UTD who are expose possible closure of school.
• Notification today of one case with Symptoms of Fever, Rash Fatigue on 2/12/19 and reports limb weakness 2/19. Reports going to Children’s in Cincinnati but
Carolyn’s Contact couldn’t find the case.
Here Guidance from The CDC’s Strategies for the Control and Investigation of Varicella Outbreaks Manual,
The CDC Surveillance Manual Varicella chapter, Control of Communicable Diseases Manual, and AAP Managing Infectious Diseases in Child Care and Schools.
First contacts need to be identify and PEP given within
3-5 of exposure. Since the school has a 18 %vaccination

App. 15
rate I doubt they will consider vaccination at this
point. Communication to the school about case identification and PEP is important.
Here is the guidance on exclusion: Children who lack
evidence of immunity and whose parents refuse vaccination should be excluded from school from the start
of the outbreak through 21 days after rash onset of the
last identified case.

App. 16
[LOGO] NKYHEALTH
NORTHERNKENTUCKYHEALTH

Phone Conversation Follow-up
1 message
Zack Raney <zachary.raney@nkyhealth.org>
Fri, Feb 22, 2019 at 9:57 AM
To: frdmuscha@gmail.com
Cc: Stephanie Vogel <stephanie.vogel@nkyhealth.org>
Father Muscha,
Thank you for speaking with me earlier today. On that
calf we discussed the prevention and control measures
for the outbreak that is occurring at Assumption Academy. We discussed that all measures need to be implemented in both schools. We also discussed that normal
school activities may continue at this time, but all
school events are to be cancelled until 21 days after the
onset of rash for the last ill student. These events
would include any instance where students from your
school are going into other schools/public areas or the
public/other schools are coming to your school. Events
Include but are not limited to sporting events (including both home and away games), fairs, festivals, music
events, etc.
Please be sure to send the attached letter to all parents
today, before students are released for spring break
and implement the attached disinfection guidelines. It
is also important to encourage parents of ill students
to see the child’s primary care physician. A proper

App. 17
diagnosis will help tremendously in our prevention
and control measures.
We will continue to monitor the outbreak and ask for a
report of all ill students or teachers after spring break.
If cases continue or if any of these measures are not
followed, additional prevention and control measures
may become necessary.
Please send me an email when the letter has been sent
and disinfection has occurred.
Thank you,
Zack Raney, MPH, CHES
Epidemiology Manager
Northern Kentucky Health Department
8001 Veterans Memorial Drive, Florence, KY 41042
Office: 859-363-2073 |On-Call Staff: 859-391-5357
zachary.raney@nkyhealth.org
[LOGO] NKYHEALTH
NORTHERNKENTUCKYHEALTH

[LOGO]

App. 18
[LOGO] NKYHEALTH [LOGO]
NORTHERNKENTUCKYHEALTH

Northern Kentucky Health Department
8001 Veterans Memorial Drive, Florence, KY 41042 |
859-341-4264 | www.nkyhealth.org
February 21, 2019
Dear Parent or Guardian of Students at Assumption
Academy:
This letter is to follow-up from a previous letter sent
on February 5, 2019. Your child’s school, Assumption
Academy, is still experiencing an outbreak of this illness
that is accompanied by a blister-like rash suspected to
be chickenpox. Chickenpox can be a very serious illness
for many in your community. Chickenpox is especially
dangerous for anyone that is immunocompromised or
pregnant. Complications from chickenpox can include
many secondary infections such as bacterial infections,
pneumonia, encephalitis, Reye syndrome, sepsis and
even death.
Chickenpox spreads easily, mainly when a person touches
or breathes in the virus that comes from chickenpox
blisters. It can also spread through tiny droplets that
get into the air when someone who has chickenpox
breathes or talks, for example.
Due to the possibility of severe complications and
death, even in healthy children, chickenpox parties are
not recommended. There is no way to tell in advance
how your child will react to chickenpox and how severe
their symptoms will be. It is not worth taking the
chance of exposing your child to this disease.

App. 19
As a result of this outbreak, all school events are being
cancelled until 21 days after the onset of rash for the
last ill student. These events would include any instance where students from your school are going into
other schools/public areas or the public/other schools
are coming to your school. Events include but are not
limited to sporting events (including both home and
away games), fairs, festivals, music events, etc.
The Northern Kentucky Health Department advises
that you take the following actions:
Monitor your child for symptoms of chickenpox.
Symptoms include a blister-like rash, itching, tiredness and fever that can last 5-7 days. The rash appears
first on the chest, back, and face, and then spreads over
the entire body. Be aware that they may not show
symptoms or become ill for 10-21 days after they were
exposed to chickenpox.
Be sure to let your doctor know if other symptoms start
occurring such as the rash spreads to one or both eyes
or gets very red, warm or tender, or the rash is accompanied by dizziness, disorientation, rapid heartbeat,
shortness of breath, tremors, loss of muscle coordination, worsening cough, vomiting, stiff neck or a fever
higher than 102 degrees.
If your child experiences any of the symptoms of
chickenpox:
• Keep them away from other people until all
blisters have dried into scabs (usually 6 days
after rash onset, but can vary).

App. 20
•

Call your doctor and schedule an appointment
immediately. Make sure the doctor performs
“confirmatory” testing if it is believed to be
chickenpox and ask about antiviral treatment.

If your child is diagnosed with chickenpox:
• Ask the doctor for a note to give to the school
that states your child has chickenpox.
•

Notify the school of your child’s diagnosis.
School officials will require that you keep your
child at home for the next 7 days, until they
are no longer able to spread the virus.

•

Ensure other people that the child has been
around monitor for symptoms and to get vaccinated if they have not been vaccinated.

If any other member of your household experiences symptoms of chickenpox:
• Keep them away from other people both in
and outside of the household until all blisters
have dried into scabs (usually 6 days after
rash onset, but can vary).
•

Ensure they contact their doctor immediately
for testing and treatment. They may want to
ask about antiviral treatment.

Ensure all members of your household are up-todate on all vaccinations. The chickenpox vaccine is
the best way to prevent the spread of the virus. It is
very safe and prevents almost all cases of severe illness. Most people who get the vaccine will not get
chickenpox. Contact your health care provider or the

App. 21
Health Department with any questions about where to
get the vaccine.
Everyone can be susceptible to chickenpox. However, if
a vaccinated person gets chickenpox, the symptoms are
usually milder and may be shorter in duration. Some
people are at a higher risk for severe illness and serious complications. This includes infants (less than 1
year old), unvaccinated children, adolescents (older
than 12 years old), adults, pregnant women and immunocompromised persons.
If you have any questions or concerns, please call the
Health Department at 859-363-2070.

App. 22
[LOGO] NKYHEALTH
NORTHERNKENTUCKYHEALTH

Phone Conversation Follow-up
1 message
Zack Raney <zachary.raney@nkyhealth.org>
Fri, Feb 22, 2019 at 9:57 AM
To: frdmuscha@gmail.com
Cc: Stephanie Vogel <stephanie.vogel@nkyhealth.org>
Father Muscha,
Thank you for speaking with me earlier today. On that
call we discussed the prevention and control measures
for the outbreak that is occurring at Assumption Academy. We discussed that all measures need to be implemented in both schools. We also discussed that normal
school activities may continue at this time, but all
school events are to be cancelled until 21 days after the
onset of rash for the last ill student. These events
would include any instance where students from your
school are going into other schools/public areas or the
public/other schools are coming to your school. Events
Include but are not limited to sporting events (including both home and away games), fairs, festivals, music
events, etc.
Please be sure to send the attached letter to all parents
today, before students are released for spring break
and implement the attached disinfection guidelines. It
is also important to encourage parents of ill students
to see the child’s primary care physician. A proper

App. 23
diagnosis will help tremendously in our prevention
and control measures.
We will continue to monitor the outbreak and ask for a
report of all ill students or teachers after spring break.
If cases continue or if any of these measures are not
followed, additional prevention and control measures
may become necessary.
Please send me an email when the letter has been sent
and disinfection has occurred.
Thank you,
Zack Raney, MPH, CHES
Epidemiology Manager
Northern Kentucky Health Department
8001 Veterans Memorial Drive, Florence, KY 41042
Office: 859-363-2073 |On-Call Staff: 859-391-5357
zachary.raney@nkyhealth.org
[LOGO] NKYHEALTH
NORTHERNKENTUCKYHEALTH

[LOGO]

App. 24
[LOGO] NKYHEALTH
NORTHERNKENTUCKYHEALTH

Basketball Tournament
1 message
Zack Raney <zachary.raney@nkyhealth.org>
Fri, Feb 22, 2019 at 11:30 AM
To: Daniel Muscha <frdmuscha@gmail.com>
Cc: Stephanie Vogel <stephanie.vogel@nkyhealth.org>
Father Muscha,
Thank you for talking with me again today. You had
called and asked if the basketball team could participate in the state tournament. After you reported that
none of the students on the team were fully vaccinated,
it was the Health Department’s determination to not
allow the team to participate in the tournament.
During this outbreak, our primary concern remains the
prevention and control of the spread of the chickenpox
virus. Please let me know if you have any further questions.
Thank you,
Zack Raney, MPH, CHES
Epidemiology Manager
Northern Kentucky Health Department
8001 Veterans Memorial Drive, Florence, KY 41042
Office: 859-363-2073 |On-Call Staff: 859-391-5357
zachary.raney@nkyhealth.org
[LOGO] NKYHEALTH
NORTHERNKENTUCKYHEALTH

[LOGO]

App. 25
[LOGO] NKYHEALTH
NORTHERN KENTUCKY HEALTH DEPARTMENT

Varicella Titer Test
2 messages
Fri, Feb 22, 2019 at 1:28 PM
Zack Raney <zachary.raney@nkyhealth.org>
To: Daniel Muscha <frdmuscha@gmail.com>
Cc: Stephanie Vogel <stephanie.vogel@nkyhealth.org>,
Nathan Webb <nathan.webb@nkyhealth.org>
Father Muscha,
As we discussed, all players on the basketball
team will need a varicella titer test that indicates
both IgM and IgG status before playing in any
game.
If a student has a positive IgM result, regardless
of IgG status, they cannot play in any basketball
games or attend any tournament games/events.
If a student has a negative IgG result, regardless
of IgM status, they cannot play in any basketball
games or attend any tournament games/events.
The results of the team’s titer tests will need to be
faxed to 859-363-2057 and you will need to call our
on-call epidemiology phone at 859-391-5357 to notify the on-call epidemiologist that the results
have been sent. At that time, the epidemiologist
will determine whether or not each student may
participate in future games/events based on the
titer results.
Thank you,

App. 26
Zack Raney, MPH, CHES
Epidemiology Manager
Northern Kentucky Health Department
8001 Veterans Memorial Drive, Florence, KY 41042
Office: 859-363-2073 | On-Call Staff: 859-391-5357
zachary.raney@nkyhealth.org
[LOGO] NKYHEALTH

[LOGO]

NORTHERN KENTUCKY HEALTH DEPARTMENT

EEO/M/F/Vets/Disabled/H
NOTICE OF CONFIDENTIALITY: This e-mail,
including any attachments, is intended only for
the use of the individual or entity to which it is
addressed and may contain confidential information that is legally privileged and exempt from
disclosure under applicable law. If the reader of
this message is not the intended recipient, you are
notified that any review, use, disclosure, distribution or copying of this communication is strictly
prohibited. If you have received this communication in error, please contact the sender by reply email and destroy all copies of the original message.

Tue, Feb 26, 2019 at 2:26 PM
Zack Raney <zachary.raney@nkyhealth.org>
To: Daniel Muscha <frdmuscha@gmail.com>
Cc: Stephanie Vogel <stephanie.vogel@nkyhealth.org>,
Nathan Webb <nathan.webb@nkyhealth.org>
Father Muscha,
After speaking with our Medical Director, he
wanted to stress the importance of checking for
symptoms among players on the team before the
game tonight and before any following game(s). If

App. 27
any member of the team is currently experiencing
any symptom of chickenpox, they cannot play in
any basketball games or attend any tournament
games/events. Symptoms of chickenpox include
but are not limited to: a blister-like rash, itching,
tiredness and fever that can last 5-7 days. In addition, the two players Nate discussed with you this
past weekend, A.C. and J.K. cannot play in any
basketball games or attend any tournament
games/events.
Please let me know if you have any questions.
Thank you,
Zack
Zack Raney, MPH, CHES
Epidemiology Manager
Northern Kentucky Health Department
8001 Veterans Memorial Drive, Florence, KY 41042
Office: 859-363-2073 | On-Call Staff: 859-391-5357
zachary.raney@nkyhealth.org
[LOGO] NKYHEALTH

[LOGO]

NORTHERN KENTUCKY HEALTH DEPARTMENT

App. 28
[LOGO] NKYHEALTH
NORTHERN KENTUCKY HEALTH DEPARTMENT

Assumption Academy Varicella outbreak
1 message
Sat, Feb 23, 2019 at 1:05 PM
Nathan Webb <nathan.webb@nkyhealth.org>
To: Daniel Muscha <frdmuscha@gmail.com>
Cc: Zack Raney <zachary.raney@nkyhealth.org>
Hi Father Muscha,
Thank you for speaking to me today regarding the
status of the players on the basketball team. There
were 2 players (AC, JK) who did not show immunity to the virus, and will need to be held out of
games until immunity can be confirmed. The other
8 players all showed to be immune, and are cleared
to participate.
Feel free to contact me again at (859) 391-5357
with questions or concerns.
Thank you,
Nate Webb
-Nate Webb, MPH
Epidemiologist
Northern Kentucky Health Department
8001 Veterans Memorial Drive, Florence, KY 41042
Office: 859-363-2066 | FAX: 859-363-2057
Nathan.Webb@nkyhealth.org

App. 29
[LOGO] NKYHEALTH

[LOGO]

NORTHERN KENTUCKY HEALTH DEPARTMENT

EEO/M/F/Vets/Disabled/H
NOTICE OF CONFIDENTIALITY: This e-mail,
including any attachments, is intended only for
the use of the individual or entity to which it is
addressed and may contain confidential information that is legally privileged and exempt from
disclosure under applicable law. If the reader of
this message is not the intended recipient, you are
notified that any review, use, disclosure, distribution or copying of this communication is strictly
prohibited. If you have received this communication in error, please contact the sender by reply email and destroy all copies of the original message.

App. 30
[LOGO] NKYHEALTH
NORTHERN KENTUCKY HEALTH DEPARTMENT

authority to take necessary measures to control
outbreaks
1 message
Mon, Feb 25, 2019 at 10:49 AM
Miracle, Julie (CHFS-PH) <Julie.Miracle@ky.gov>
To: “Kunkel.bill@gmail.com” <Kunkel.bill@gmail.com>
Cc: “Thoroughman, Douglas (CHS-PH)”
<douglas.thoroughman@ky.gov>, “Robeson, Sara
(CHS-PH)” <Sara.Robeson@ky.gov>, “Royalty,
Kristy (CHS-PH)” <Kristy.Royalty@ky.gov>,
“Cunningham, Troi (CHFS PH EPI)”
<Troi.Cunningham@ky.gov>, “Carolyn Swisshelm
(carolyn.swisshelm@nkyhealth.org)”
<carolyn.swisshelm@nkyhealth.org>, Zack Raney
<zachary.raney@nkyhealth.org>, Stephanie Vogel
<stephanie.vogel@nkyhealth.org>
Mr. Kunkel,
Thank you for calling today. I have attached the
Kentucky laws giving the Department for Public
health and Local Health Departments the authority to investigate and take measures necessary to
prevent and control vaccine preventable disease
outbreaks in schools, hospitals and long-term facilities.
When the NKY Health Department learned the
school has pregnant teachers, pregnant mothers of
students, and siblings who have not had varicella
disease, combined with such a high percentage of

App. 31
unvaccinated children in the facility, the health
department felt it necessary to intervene to prevent a community-wide outbreak.
At this point, as there is no diagnostic confirmation associated with these illnesses, there is no
choice but to intervene on behalf of the community
as a precaution. We urge those affected to seek
clinical diagnosis to determine the exact cause of
the rash so treatment and prevention efforts can
be fully addressed. Depending on the outcome of a
clinical diagnosis for those affected, outbreak control measures may be revised accordingly.
Regards,
Julie A Miracle RN
The Best and most beautiful things in the world
cannot be seen or even touched- they must be felt
with the heart.
Helen Keller

App. 32
[LOGO] NKYHEALTH
NORTHERN KENTUCKY HEALTH DEPARTMENT

Follow-up From Our Meeting
1 message
Wed, Feb 27, 2019 at 8:21 AM
Zack Raney <zachary.raney@nkyhealth.org>
To: Kunkel.bill@gmail.com
Cc: Stephanie Vogel <stephanie.vogel@nkyhealth.org>,
Carolyn Swisshelm <carolyn.swisshelm@nkyhealth.org>
Mr. Kunkel,
I wanted to follow-up from our conversation yesterday. You stated that you were upset with the
fact that your son could not participate in basketball games based on his lack of immunity to the
varicella virus.
We discussed that the school is currently in an outbreak, or epidemic, of an illness that is most likely
varicella, or chickenpox. There has been a clinical
diagnosis of chickenpox in one student and the
other student’s illnesses are consistent with chickenpox. All schools in Kentucky are required to report all cases of chickenpox and any occurrence of
any-outbreak or epidemic, regardless of a confirmed diagnosis.
It is also important to note the letters that were
sent to parents. All school events are being cancelled until 21 days after the onset of rash for the
last ill student. These events would include any instance where students from your school are going
into other schools/public areas or the public/other

App. 33
schools are coming to your school. Events include
but are not limited to sporting events (including
both home and away games), fairs, festivals, music
events, etc.
On Friday, 2/22/19, school administration asked if
the basketball team could participate in the state
basketball tournament if they were tested. It was
decided at that time that all players on the basketball team needed a varicella titer test that indicated both IgM and IgG status before playing/
attending any game. If a student had a positive
IgM result, regardless of IgG status, they cannot
play in any basketball games or attend any tournament games/events. If a student had a negative
IgG result, regardless of IgM status, they cannot
play in any basketball games or attend any tournament games/events.
We also provided you 902 KAR 2:020: Amended
Table of Reportable Diseases and Conditions in
Kentucky, KRS 214.020, 902 KAR 2_030, and 902
KAR 2_050 which outline the authority of the
Kentucky Department for Public Health and Local
Health Departments to investigate and implement measures that are necessary to prevent and
control disease outbreaks.
You mentioned that there were no confirmed cases
of chickenpox at this time, and we discussed that
regardless of diagnosis, these measures needed to
be implemented to prevent and control the spread
of the illness. We discussed the importance of parents of ill children taking their child to their primary care physician and getting a confirmed
diagnosis. Having a confirmed diagnosis will help
refine our response efforts.

App. 34
We also discussed the religious exemption form
that you signed for your child and pointed out that
is does state that student may need to be excluded
from school during times of outbreak.
Our primary concern is preventing the spread of
this illness to the public. Without definitive evidence of immunity, a person could be a source of
potential exposure, even if they are currently
healthy. It’s impossible to know how anyone will
react to chickenpox, therefore we must act with an
abundance of caution.
Respectfully,
Zack Raney, MPH, CHES
Epidemiology Manager
Northern Kentucky Health Department
8001 Veterans Memorial Drive, Florence, KY 41042
Office: 859-363-2073 | On-Call Staff: 859-391-5357
zachary.raney@nkyhealth.org

App. 35
[LOGO] NKYHEALTH
NORTHERN KENTUCKY HEALTH DEPARTMENT

Chickenpox Outbreak Update
3 messages
Tue, Mar 12, 2019 at 3:35 PM
Zack Raney <zachary.raney@nkyhealth.org>
To: “Miracle, Julie (CHFS-PH)” <Julie.Miracle@ky.gov>,
“Thoroughman, Douglas (CHS-PH)”
<douglas.thoroughman@ky.gov>
Cc: Stephanie Vogel <stephanie.vogel@nkyhealth.org>,
Lynne Saddler <lynne.saddler@nkyhealth.org>,
mstewart@aswdlaw.com, NKYHD Carolyn
Swisshelm <carolyn.swisshelm@nkyhealth.org>
Julie and Doug,
We now have 32 cases of chickenpox in the school
that we have previously discussed. The school reported a total of 11 cases today and at least 10 of
them had onsets of illness since Thursday.
We would like to have a conference call regarding
prevention and control measures. Are you all
available today?
Thank you.
Zack Raney, MPH, CHES
Epidemiology Manager
Northern Kentucky Health Department
8001 Veterans Memorial Drive, Florence, KY 41042
Office: 859-363-2073 | On-Call Staff: 859-391-5357
zachary.raney@nkyhealth.org

App. 36
[LOGO] NKYHEALTH

[LOGO]

NORTHERN KENTUCKY HEALTH DEPARTMENT

EEO/M/F/Vets/Disabled/H
NOTICE OF CONFIDENTIALITY: This e-mail,
including any attachments, is intended only for
the use of the individual or entity to which it is
addressed and may contain confidential information that is legally privileged and exempt from
disclosure under applicable law. If the reader of
this message is not the intended recipient, you are
notified that any review, use, disclosure, distribution or copying of this communication is strictly
prohibited. If you have received this communication in error, please contact the sender by reply email and destroy all copies of the original message.

App. 37
[LOGO] NKYHEALTH
NORTHERN KENTUCKY HEALTH DEPARTMENT

FOR IMMEDIATE RELEASE
March 14, 2019
Contact: Jonathan Vorbeck
Public Health Impacts Administrator
859-344-5474
Jonathan.Vorbeck@nkyhealth.org
Chickenpox Outbreak Grows to 32 Students at
Assumption Academy
FLORENCE, KY.—Students at Our Lady of the Sacred
Heart/Assumption Academy in Walton, KY are experiencing an outbreak of an illness characterized by a
blister-like rash presumed to be chickenpox (varicella).
There are currently 32 cases at the school. Chickenpox
is a vaccine-preventable illness with a blister-like rash,
itching, tiredness and fever that can last 5-7 days.
Chickenpox can be a very serious illness. Chickenpox
spreads easily, mainly when a person touches or
breathes in the virus that comes from chickenpox blisters. It can also spread through tiny droplets that get
into the air when someone who has chickenpox
breathes or talks, for example.
Chickenpox is especially dangerous for infants and anyone who is pregnant or has a weakened immune system. Complications from chickenpox can include
secondary infections such as bacterial skin infections,
pneumonia, encephalitis, Reye’s syndrome, sepsis and
even death.

App. 38
“Although we have been working with the school to
contain the illnesses since February,” stated Dr. Lynne
Saddler, District Director of Health at the Northern
Kentucky Health Department, “the Health Department has recently seen a concerning increase in the
number of infected students at the school which has
prompted us to take further control measures at the
school and to make the public aware that chicken pox
may be in the community.”
As a result of the continued increase in cases and to
prevent further spread of this illness, the Northern
Kentucky Health Department has instructed that all
students without proof of vaccination or proof of immunity against chickenpox will not be allowed to attend school until 21 days after the onset of rash for the
last ill student or staff member.
In addition, all school events and extracurricular activities involving other schools or the public will continue to be cancelled until 21 days after the onset of
rash for the last ill student or staff member. These
events would include any instances where students
from Our Lady of the Sacred Heart/Assumption Academy are going into other schools/public areas, or the
public/other schools are coming to Our Lady of the
Sacred Heart/Assumption Academy. Events include
but are not limited to sporting events (including both
home and away games), fairs, festivals, music events,
etc.
Parents of students have also been notified to monitor
their children for symptoms for the duration of the

App. 39
outbreak and to minimize contact with others in the
community, especially avoiding infants, pregnant
women and individuals known to be immunocompromised.
The chickenpox vaccine is the best way to prevent becoming ill and spreading the varicella virus. It is very
safe and prevents almost all cases of severe illness. Ensure all members of your household are up-to-date on
all vaccinations. Contact your health care provider or
the Health Department with any questions about
where to get the vaccine.
###
The Northern Kentucky Health Department provides
high quality public health services to more than
400,000 residents of Boone, Campbell, Grant and Kenton Counties, with a goal of preventing disease, promoting wellness and protecting against health threats.
The Health Department seeks to be a nationwide
leader in public health, and was one of the first in the
country to earn national public health accreditation.
For more information, visit www.nkyhealth.org.

App. 40
[LOGO] NKYHEALTH
NORTHERN KENTUCKY HEALTH DEPARTMENT

March 14, 2019
Dear Parent or Guardian:
This letter is to follow-up from previous letters sent on
February 5 and 21, 2019. Your child’s school, Our Lady
of the Sacred Heart Academy/Assumption Academy,
Grades K-12, is still experiencing an outbreak of an illness characterized by a blister-like rash presumed to
be chickenpox (varicella) based on a clinical diagnosis
received through Cincinnati Children’s Hospital on
02/19/19. There has been a concerning increase in the
number of infected students at Assumption Academy
over the past three weeks. Since February 24th, 2019,
there has been a 68% increase (from 19 to 32) in the
number of varicella cases. 13% of the total student
body has been affected by this outbreak.
Chickenpox can be a very serious illness for many in
your community. Chickenpox spreads easily, mainly
when a person touches or breathes in the virus that
comes from chickenpox blisters. It can also spread
through tiny droplets that get into the air when someone who has chickenpox breathes or talks, for example.
Chickenpox is especially dangerous for infants and
anyone that is immunocompromised or pregnant.
Complications from chickenpox can include many secondary infections such as bacterial infections, pneumonia, encephalitis, Reye’s syndrome, sepsis and even
death. Do not use aspirin or aspirin-containing products to relieve fever from chickenpox. The use of

App. 41
aspirin in children with chickenpox has been associated with Reye’s syndrome, a severe disease that affects the liver and brain and can cause death.
As a result of the continued increase in cases and to
prevent further spread of this illness, beginning Friday, March 15, 2019, all students, Grades K-12, without proof of vaccination or proof of immunity against
varicella virus will not be allowed to attend school until 21 days after the onset of rash for the last ill student
or staff member. In order for your student to attend
school, proof of either vaccination or immunity will
need to be either on file or sent to the school. Acceptable proof of vaccination includes state certificate of immunization signed by a health care provider that
indicates the two dose series of varicella vaccination
has been received. Acceptable proof of immunity includes a notice from a healthcare provider that they
have received laboratory evidence of immunity (IgM)
or disease (IgG).
School events will continue to be cancelled until 21
days after the onset of rash for the last ill student or
staff member. These events would include any instance
where students from your school are going into other
schools/public areas or the public/other schools are
coming to your school. Events include but are not limited to sporting events (including both home and away
games), fairs, festivals, music events, etc.
Assumption Academy personnel will communicate
with you when students without proof of vaccination
or immunity against chickenpox may return to school.

App. 42
You will need to monitor your child for symptoms for
the duration of the outbreak. At the same time, we
urge minimizing contact with others outside the home,
especially avoiding infants under 12 months, pregnant
women and individuals known to be immunocompromised. More detailed instructions are on the next page.
The Northern Kentucky Health Department advises
that you continue to take the following actions:
Monitor your child for symptoms of chickenpox.
Symptoms include a blister-like rash, itching, tiredness and fever that can last 5-7 days. The rash appears
first on the chest, back, and face, and then spreads over
the entire body. Be aware that they may not show
symptoms or become ill for 10-21 days after they were
exposed to chickenpox.
Be sure to let your doctor know if other symptoms start
occurring such as the rash spreads to one or both eyes
or gets very red, warm or tender, or the rash is accompanied by dizziness, disorientation, rapid heartbeat,
shortness of breath, tremors, loss of muscle coordination, worsening cough, vomiting, stiff neck or a fever
higher than 102 degrees.
If your child experiences any of the symptoms of
chickenpox:
•

Keep them away from other people until all
blisters have dried into scabs (usually 6 days
after rash onset, but can vary).

•

Call your doctor and schedule an appointment
immediately. Make sure the doctor performs

App. 43
“confirmatory” testing if it is believed to be
chickenpox and ask about antiviral treatment.
If your child is diagnosed with chickenpox:
•

Ask the doctor for a note to give to the school
that states your child has chickenpox.

•

Notify the school of your child’s diagnosis.
School officials will require that you keep your
child at home for the next 7 days, until they
are no longer able to spread the virus.

•

Ensure other people that the child has been
around monitor for symptoms and to get vaccinated if they have not been vaccinated.

If any other member of your household experiences symptoms of chickenpox:
•

Keep them away from other people both in
and outside of the household until all blisters
have dried into scabs (usually 6 days after
rash onset, but can vary).

•

Ensure they contact their doctor immediately
for testing and treatment. They may want to
ask about antiviral treatment.

Ensure all members of your household are up-todate on all vaccinations. The chickenpox vaccine is
the best way to prevent the spread of the virus. It is
very safe and prevents almost all cases of severe illness. Most people who get the vaccine will not get
chickenpox. Contact your health care provider or the

App. 44
Health Department with any questions about where to
get the vaccine.
Everyone can be susceptible to chickenpox. However, if
a vaccinated person gets chickenpox, the symptoms are
usually milder and may be shorter in duration. Some
people are at a higher risk for severe illness and serious complications. This includes infants (less than 1
year old), unvaccinated children, adolescents (older
than 12 years old), adults, pregnant women and immunocompromised persons.
Chickenpox parties are not recommended due
to the possibility of severe complications and
death, even in healthy children. There is no way to
tell in advance how your child will react to chickenpox
and how severe their symptoms will be. It is not worth
taking the chance of exposing your child to this disease.
If you have any questions or concerns, please call the
Health Department at 859-363-2070.

App. 45
COMMONWEALTH OF KENTUCKY
COURT OF APPEALS
CASE NO. 2019-CA-000575
JEROME KUNKEL, et al.

APPELLANTS

v. ON APPEAL FROM BOONE CIRCUIT COURT
CASE NO 19-CI-00357
NKY INDEPENDENT
HEALTH DISTRICT, et al.

APPELLEES

AFFIDAVIT
(Filed Jun. 4, 2019)
The Affiant, having first being duly cautioned and
sworn, for his Affidavit states as follows;
1. I am employed as an Epidemiology Manager
at the Northern Kentucky Health Department
2. I am familiar with the varicella outbreak at
Assumption Academy and testified at the April 1, 2019
hearing on Plaintiffs’ Motion for Preliminary Injunction.
3. According to Northern Kentucky Health Department reports, there have not been any new cases
of varicella reported among known staff or students at
Assumption Academy since May 7, 2019. That report
indicated a rash onset date of April 27, 2019. Accordingly, the Activities Restriction and the School Restriction expired on May 18, 2019 and all students in
grades K – 12 without proof of vaccination or proof of

App. 46
immunity against the varicella virus are permitted to
attend school.
4. A true and accurate copy of my May 7, 2019
email to Fr. Musha at Assumption Academy communicating these facts is attached as Exhibit A.
Further Affiant sayeth naught.
/s/ Zack Raney
ZACK RANEY
COMMONWEALTH OF KENTUCKY )
) ss:
COUNTY OF Wake
)
Sworn to before me and subscribed in my presence
by ZACK RANEY, this 4th day of June, 2019,
/s/ Brianda J. Noyola
NOTARY PUBLIC
[SEAL]

My Commission Expires: 5-23-23
ID#:

